<html>
<title> - COAL MINE SAFETY IN CHINA: CAN THE ACCIDENT RATE BE REDUCED?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





      COAL MINE SAFETY IN CHINA: CAN THE ACCIDENT RATE BE REDUCED?

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2004

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-797                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska              CRAIG THOMAS, Wyoming
DAVID DREIER, California             SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                 PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania              GORDON SMITH, Oregon
SANDER LEVIN, Michigan               MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                   CARL LEVIN, Michigan
SHERROD BROWN, Ohio                  DIANNE FEINSTEIN, California
DAVID WU, Oregon                     BYRON DORGAN, North Dakota
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State
                  STEPHEN J. LAW, Department of Labor

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

                                  (ii)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Feickert, Dave, consultant in industrial relations, ergonomics, 
  and energy, Sheffield, U.K.....................................     2
McNestry, Peter, British Coal Health Claims Monitoring Group, 
  European Safety and Health Commission for Coal and Other 
  Extractive Industries, Goole, North Yorkshire, U.K.............     5
Carey, Leo, executive director of government services, the 
  National Safety Council, Washington, DC........................     9

                                APPENDIX
                          Prepared Statements

Feickert, Dave...................................................    28
McNestry, Peter..................................................    32
Carey, Leo.......................................................    33

 
      COAL MINE SAFETY IN CHINA: CAN THE ACCIDENT RATE BE REDUCED?

                              ----------                              


                       FRIDAY, DECEMBER 10, 2004

                            Congressional-Executive
                                        Commission on China
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10 
a.m., in room 2255, Rayburn House Office Building, John Foarde 
[staff director] presiding.
    Also present: David Dorman, deputy staff director; Susan 
Weld, general counsel; Patricia Dyson, senior counsel; Carl 
Minzner, senior counsel; and Keith Hand, senior counsel.
    Mr. Foarde. All right. The magic hour has arrived and I 
think we should get started. We have always tried to start on 
time and end on time at our Issues Roundtables, and we want to 
continue that very healthy practice.
    First of all, on behalf of Chairman Jim Leach and Co-
chairman Senator Chuck Hagel of the Congressional-Executive 
Commission on China, welcome to this Issues Roundtable about 
coal mine safety in China.
    When we first started looking at these issues and got 
interested in them, we decided to try to arrange a roundtable 
on this topic. We have been trying to get our distinguished 
panelists and experts here for some time, and this week was 
possible for them. We had no idea that the topic would be so 
timely. The accidents in China of November 26, and we just 
heard that there has been another one in Jiangxi Province today 
where there was heavy loss of life, makes this a particularly 
opportune moment to get into these issues.
    The increase in fatal coal mine accidents in China has been 
of concern to our Commission members, and the burgeoning rate 
of fatalities appears to be the result of an exploding demand 
for energy in China and the growing desperation of farmers, 
driven by poverty, to seek jobs underground in small, 
dangerous, mostly private coal mines.
    Official government statistics tell a grim story of workers 
injured and killed in coal mines. Figures released in June 2004 
show that over 6,000 miners died in 2003. An expert at the 
Chinese Mining University estimates a national rate of 12 
fatalities per million tons of coal mined. As of October 30, 
some 4,153 Chinese mine workers had lost their lives, and then 
we had the very heavy additional fatalities since then.
    The Chinese Government has some control over safety 
standards in large, state-owned coal mines, but virtually no 
control over small, private mines where most of the fatal 
accidents occur.
    The Chinese people are increasingly aware of the appalling 
death and injury toll, but one Chinese expert expressed the 
view that it would take decades before China reaches the safety 
levels of the developed world.
    Given this background, we wanted to look into the question 
of how foreign countries with advanced safety standards, and 
international institutions such as the ILO, could help Chinese 
authorities improve coal mine safety. We are particularly 
pleased to have two experts from the United Kingdom who have 
come a long way to share their expertise with us.
    We have had foreign experts--that is, non-U.S. experts--at 
previous Issues Roundtables and hearings in the CECC over the 
last three years, but I think you two may have the record for 
coming the longest way.
    Our panelists are: Dave Feickert, who is a consultant in 
industry relations, ergonomics, and energy; Peter McNestry, who 
has served on numerous British, European, and international 
coal mine safety boards; and Leo Carey, who is the Executive 
Director of Government Services for the U.S. National Safety 
Council here in Washington. I will introduce them at somewhat 
greater length before they speak.
    As in the past, each panelist will have 10 minutes to make 
an initial presentation. When all three panelists have spoken, 
we will go to a question and answer session from the staff 
panel here, giving each staff member about five minutes to ask 
a question and hear the answer. We will keep going until we 
have exhausted the topic or until 11:30 arrives, whichever is 
first.
    First, then, Dave Feickert. Dave is a native of Sheffield 
in the United Kingdom and has served as a representative of the 
Trades Union Council to the Economic and Social Committee in 
Brussels, where he worked closely with the European Commission, 
the European Parliament, the Council, and other European 
organizations. He has been a representative on the European 
Coal and Steel Industry Consultative Committee and has 
conducted seminars on health and safety for mine workers in the 
Czech and Slovak Republics. His most recent publications 
include articles on the international coal market, mine 
privatization, and a paper on ``Miners, Safety and the 
Technological Revolution'' at a safety conference in 
Lancashire, U.K.
    Welcome, Dave Feickert. Thank you very much for being here.

STATEMENT OF DAVE FEICKERT, CONSULTANT IN INDUSTRIAL RELATIONS, 
             ERGONOMICS AND ENERGY, SHEFFIELD, U.K.

    Mr. Feickert. Thank you very much, Chair. We are very 
pleased to be here. It might seem a long way to come, but this 
issue is extremely important and something we are discussing on 
a quite wide basis, not only in Europe, but also 
internationally. International trade unions are particularly 
concerned about the situation with the coal industry in China.
    I would like to make three points. Let me just briefly 
mention them by way of summary. The first point is that China 
produces one-third of the world's coal, yet has over 80 percent 
of the fatal accidents of the world's coal mining industry. 
That is a figure that came from the Chinese Mine Safety 
Administration. They know what the situation is. They know how 
serious it is. They know it is creating considerable 
difficulties of all kinds.
    I think our interest is really one of common humanity: how 
can we help to solve this problem? Our industries have gone 
through, in Europe, and yours has as well in the United States, 
long periods which have similarities, way back in time, so we 
have a lot of experience as a result.
    The second point is that, because we have been through 
that, should China have to go through it? Should the Chinese 
industrial revolution that is taking place at the moment have 
to take the same shape in terms of the cost in coal mining of 
human life when it is no longer technically necessary? In other 
words, there are solutions that are available if we could only 
coordinate our efforts to help the Chinese.
    And the third point I want to make is that this issue is a 
vital one for strategic energy reasons. This is not just a 
question of health and safety at work, not just a question of 
one industry, it is a question of global energy demand and the 
balance of demand in the future.
    The speed of growth of the Chinese economy is so fast and 
the demand for energy is so great that China will be producing 
much more than its current 1.7 billion tons of coal a year. It 
is increasing its rate at about 15 percent a year. Nobody quite 
knows where it is going to end, because coal is China's main 
energy source. If they do not mine coal, they will buy oil and 
they will buy gas off the international markets, and the prices 
of oil and gas will rise correspondingly. One of the factors in 
the recent oil price shock--I think we can call it that because 
the price of oil has stayed high for some period of time--was 
Chinese energy demand. It does not take very much imagination 
to see that if China reached the same standard of living as 
Western countries, then their energy demands--well, it is a bit 
difficult to calculate that figure, and I have not even tried.
    To come back to the main point, Chinese coal production has 
expanded enormously in the last few years. If it is going to 
continue at the rate it is, it will continue to be based on the 
three groupings of mines, the three types of mines that they 
have.
    There are a large number of small village mines that are 
really unsafe. There is no question about that. In your 
remarks, Mr. Chairman, you mentioned that. Then there are the 
county mines, which are somewhat larger, and the safety record 
is better.
    Finally, there are the large, highly mechanized mines. 
Rather ironically, some of the mining technology from closing 
British mines has been exported to China, so we know that they 
have access to some pretty good gear. That is the balance of 
the industry.
    Given the demand for energy and for coal, it is unlikely to 
change very much. They are not about to close all their small 
mines. They certainly are not going to close their medium and 
large mines. There will be more of them.
    They have recently decided to concentrate coal production 
into 13 different production groups. So the effort is to try to 
rationalize it, which they can do with the large- and medium-
sized mines, but once again, rather difficult for the small 
mines.
    Now, what are these small mines like? Well, the best 
comparison, I think, is with the kind of mines that first 
developed in Britain in the 18th century. They were known as 
bell pits, mined locally where the seams were outcropping, 
coming up to the surface. As they took the coal nearest to the 
surface, then they dug deeper and deeper, and they dug straight 
down and created bell-shaped pits. They were not very big, but 
they took the coal. Of course, if they took the bell shape out 
too far, the roof collapsed and they were killed. Well, that is 
happening in China. They also get flooding in China. Flooding 
is a particular problem in some of the small mines, especially 
the drift mines which go into the hillsides. So, there are 
particular issues there. As has been our experience in the 
U.K., the smallest mines have traditionally been the least 
safe. They are the most difficult to organize from a safety 
point of view.
    In terms of statistics, Mr. Chairman, you quoted the fatal 
accident rate. I expect that the Chinese recognize that that 
represents 80 percent of the world's fatalities in the coal 
industry. But what is very important to add to this figure is 
that the normal ratio for most coal industries, that is, the 
major industry accident rate, is about four to five times the 
fatality rate. This is in some ways even more serious because 
you are talking about maybe 35,000 people each year who are not 
going to work again, and they could be quite young. What level 
of support do they have? We know that the old social model is 
changing. It is gone, basically, in many parts of China, and 
they are trying to establish a new one. They are working with 
the European Union to set up a new Social Security system. That 
is very much the topic of the day. They have not solved it yet. 
There is this huge problem of compensation and they do not have 
a proper compensation system of the kind that we would 
recognize, but it also took us a very long time to develop. So, 
that issue is a very important one from the point of view of 
safety.
    The other point I think, in relation to accidents, is it is 
difficult to place China's development in a historical sense, 
by comparison, say, with the development of mining in the U.K., 
because the U.K. was one of the first, and it went through this 
whole process. Miners died in the thousands. Over 100 thousand 
have been killed in British mines since records were first kept 
in 1850. I try to get that across to people by saying, well, 
just think of what size of industrial towns that group would 
have represented as a population, and their families. You are 
talking about over a half a million people, probably more, as 
families were larger in those days. But that is what we went 
through. The accident rate that we had in the early part of the 
last century, when over 200 million tons were produced, is very 
similar, or was very similar, to the current Chinese accident 
rate.
    Now, we would rather prepare a measure of accidents 
measured by 100,000 man shifts, or job shifts, rather than 
tonnage, because the tonnage measure is not a very accurate 
measure. It gives you an indication. But that is what we have 
to play with.
    The last point on safety, then, is that on the basis of our 
experience, we would say that we have developed, over a long 
period of time, a well-structured safety system based on the 
role of worker safety representatives, pit safety supervisors, 
mines inspectors, and well-qualified mine managers, and a 
safety culture that was built up.
    The last point in the last minute: what can we do about it? 
Well, the most promising development took place early this 
month when the International Chemical Energy and Mining 
Federation worked together with their corresponding members of 
the mining corporations and the ILO, and they reached an 
agreement in Beijing with the Chinese authorities, the 
industry, the unions, and so on to set up a safety system. What 
they are going to do is make a complete appraisal of the 
variety of problems that exist in the medium- and large-sized 
mines before going to the next stage. I think that is the most 
promising development. There are a number of others. It is 
really important that our governments get behind that kind of 
initiative because it is a problem of such a scale that it 
requires a considerable level of political support behind it. 
Thanks very much.
    [The prepared statement of Mr. Feickert appears in the 
appendix.]
    Mr. Foarde. Dave, thank you very much. You have given us a 
lot to think about. We can come back to some of these questions 
in the Q&A.
    I would like now to recognize Peter McNestry, who has 
served on numerous British, European, and international coal 
mine safety boards and committees. In the year 2000, Peter was 
a member of the United Kingdom UNESCO National Commission, and 
before that he served with the British Coal Health Claims 
Monitoring Group. He has also served on the Safety and Mine 
Research Advisory Board, and the European Safety and Health 
Commission for coal and other extractive industries.
    Peter currently lives in Goole, North Yorkshire, and has 
come a very long way to Washington to help us this morning. 
Thank you very much.

    STATEMENT OF PETER McNESTRY, BRITISH COAL HEALTH CLAIMS 
  MONITORING GROUP, EUROPEAN SAFETY AND HEALTH COMMISSION FOR 
 COAL AND OTHER EXTRACTIVE INDUSTRIES, GOOLE, NORTH YORKSHIRE, 
                              U.K.

    Mr. McNestry. Thank you, Mr. Chairman.
    In earlier discussions, we considered how best to approach 
this and recognize the eye-catching possibility that explosions 
in mines were a major problem. It would have been wrong to say 
we were not used to it, because historically in the U.K. we 
went through this. So we thought, well, can we look back and 
see how we progressed? How did we get out of this situation? 
What did we put in place to resolve the situation?
    I do not intend to read my statement, Mr. Chairman, but I 
would like to go through these tables. I believe you have got 
them. If you could look at the table which starts--and I do not 
know in what order you got them, because I think we e-mailed 
them across. The first records of explosions in the U.K. were 
in the 1860s. There were explosions before that, but proper 
records were not kept. In the 1860s, we were not sure how many 
men worked in U.K. mines. Records were not that good. But you 
can see, it crept very high, until 1910. We put this in periods 
of decades.
    Over that period of time, there was a lot of motivation by 
people, mainly churchmen, mainly Methodists, to get involved. A 
lot of lobbying took place with politicians. Then every 
explosion that 
occurred was investigated by an official inquiry, sometimes by 
a commission, usually by an army major or an army captain. 
Decisions were taken, a report was made, and that report found 
its way through the system, and changes were brought about. My 
concern was determining, when we looked at this, how long it 
took for the explosion to occur, an investigation to be 
undertaken, and a solution to take place, and it was usually 
one to three decades.
    We do not see the need for that now, because we have the 
answers. Along with this table, we itemized the different types 
of causes of explosions. We do not have that information from 
China. We just have official reports that ``an explosion 
occurred,'' usually a gas explosion, but it usually means that 
it was a coal dust explosion, because the gas explosion was the 
initiator. But in this folder we describe all the reasons, if 
you want, for an explosion. There is unlikely to be any more, 
because we in the U.K. have experienced this. There are 
different sources, but we sought to remove them.
    In this table as well, recognizing the toll, it was a 
``belt and brace'' approach. When we learned there was a 
problem, it was investigated, and then brought about a 
solution. The ``braces'' were that we designed systems so when 
it did occur, then the majority in the mine had a chance to 
escape the effects. This brought about a practice of having two 
means of egress, a single means of egress was no longer 
allowed, other than the initial driveages, so every working 
place had two ways out. So if one area was blocked, another 
area was open. That was a simple one. Another safeguard was the 
use of stone dust barriers. When an explosion occurred on a 
working face or development, a stone dust barrier was created. 
The heat did not pass through the area of the stone dust 
barrier. The heat creates the blast when it hits the next 
junction--the coal dust is lifted and a chain reaction takes 
place.
    So these stone dust barriers were simple. It was really 
cost-effective, and did mean--and you can see it in this graph 
later on--there were a significant number of explosions, but a 
much-reduced number of deaths because large sections of the 
workforce could then escape.
    Probably the final scenario on that was the use of self-
rescuers, which came into practice in the 1970s. This was a 
small box which the mineworker had on his belt. In it were 
crystals which, when you removed the seal, a man could breathe 
for up to one hour in comfort, one half-hour with some 
discomfort, which would give him enough time to get out or get 
to a safe area in the mine.
    We are not sure exactly how far the Chinese are on this 
type of technology. We do know from managers from England who 
have gone out and installed systems that the state mines are 
well run. People there are keen to see the systems work, and 
work safely. We have little information about the village or 
the municipal mines, as the Chinese call them, and the mines 
without license. We fear that proper safety practices may not 
be the case in those mines.
    On the itemized part, can we just go through the causes? On 
the first one, there is only two explosions, where the cause 
was not proven. This was at the early stages when the experts, 
if a mine could not be reentered, could not define what had 
happened, so they had to be honest and say ``these causes were 
not proven.''
    We then come to the naked flame explosions. I guess some of 
these are also what happened in China. There is a difference in 
a naked light mine and a safety lamp mine. Safety lamp mines 
were initially deep mines.
    In the United States, you do not have the same problems we 
do in the U.K. because you have extensive reserves, and when 
there is a lot of gas about you move to another area, another 
part of the country, and another part of the valley. You move 
the mine. But we worked with this problem. In the 1880s, 1890s, 
and we had significant numbers of deaths caused from candles, 
from matches, from naked lights.
    In the U.K. we moved on from the naked lights to what we 
used to call safety lamps. That is the graph entitled ``Flame 
Lamps.'' Flame lamps were intended to be a safety lamp, but in 
the beginning they were not really all that safe. There was a 
single gauze around the lamp. The mine workers did not like 
them because they did not give the amount of illumination that 
a candle would, so things were altered, lamps were improved.
    This type of lamp developed into being what we know as the 
flame safety lamp, and later the locked flame safety lamp, 
which is the actual device which we still use in the U.K., and 
is preferred much more than the electrical type which some 
countries use. It gives you a clear indication of the level of 
gas that is there. There were a number of explosions in the 
beginning with the flame safety lamps, but these were usually 
because of misuse or because they were opened, they were 
broken, or they were not properly repaired. A commission, 
called the Sunderland Commission, examined a number of 
explosions involving the flame safety lamp and found that there 
had not been proper maintenance on these lamps. Since that 
time, all flame safety lamps are checked, repaired, and 
maintained on a shift-by-shift basis.
    As you can see from the graphs, since that time there were 
only two explosions in the 1930s, one in the 1940s, and one in 
the 1950s. This was not necessarily the flame lamps' fault. 
This was people wrongly using them, opening them up to light 
and smoke cigarettes, which were illegal at that time in many 
mines. Although this graph does not show it, not all British 
mines in the 1950s were safety lamp mines. There were still 
several naked light mines where people worked with open lights, 
usually acetylene lamps.
    One of the biggest problems was shot firing. I would guess 
that shot firing is involved to some degree in China. It was 
very high in the 1860s through the 1900s. Then we used a 
lighted fuse. We used black powder. After the First World War 
years, different types of explosives were used, electronic 
detonators were used. This clearly had a reducing effect. By 
the 1950s, we had what we call the 1954 Mines and Quarries Act. 
The Royal Commission started, from 1935 to 1938, to make 
recommendations. Before they could be implemented, the Second 
World War occurred, so the report was put on the back burner.
    There were recommendations by the Royal Commission, but 
they did not bring about any change in the law until 1954. That 
Act immediately changed most things around U.K. mines.
    The regulations regarding shot firing and the practices 
regarding shot firing were reviewed. It meant that shots could 
not be fired anywhere in the vicinity if there was more than 
1.25 percent of methane in the general body of air, and if it 
was more than 2 percent men had to be withdrawn. It was 
incumbent on what we call the deputy to ensure that occurred. 
If there was more than 1.25 percent of methane in the general 
body, you immediately stopped shot firing operations.
    The U.K. also had a problem with spontaneous combustion. 
There was one explosion in the 1880s, but it became more 
prevalent, as you can see, from 1910, because mines went 
deeper, probably deeper than what you do in America, and I 
suspect probably in China they have some deeper mines as well.
    You have the heat; you have the right conditions for coal 
to spontaneously ignite. Mixed with gas, it causes the 
explosion.
    That was like electricity. Electricity, as you can see, 
came later. It was not an early cause. Many causes had been 
reduced, and then as electricity was introduced along came a 
new ignition source.
    But you can see immediately here that there were nine 
explosions in one year, in the 1930s, nine in the 1950s. The 
cost in lives was reduced by the ``belt and braces'' approach. 
But almost immediately, enactments came in place following each 
of these incidents. By the 1970s, the U.K. had reduced 
electrical explosions.
    Friction was a new one as well, the result of bringing in 
the heavy machines, which ignited certain rocks--pyrites--which 
flew into areas where there was gas. Another thing proven, was 
that sandstone rock falling on a steel arch could create a 
spark. Nobody thought it could cause ignition, but what 
happened was, in laboratory experiments it was found that a 
rock coming down caused a vacuum, brought gas down from the 
roof behind the rock, and the spark ignited that gas, then 
ignited the coal dust, so friction became a problem. The last 
ignition we had caused by friction was in 1974, and we have not 
had one since.
    We had losses of life through fire. These graphs only are 
of fires that caused explosions. From 1940 to 1970, the loss of 
life from fires was only seven lives. So I think, 
significantly, safeguards introduced did bring necessary 
reductions. There are lessons to be learned.
    The point I would like to make is that--although we are not 
completely clear because of the technical details--there has 
been a full and proper transference of information to the 
Chinese on this issue. We think a better effort needs to be 
made to make sure that those people who are working hard to 
make mines safe have the benefit of our experience. I think if 
we can do that, then a positive and a good step will have been 
taken. Thank you, Mr. Foarde.
    [The prepared statement of Mr. McNestry appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Peter. Again, more ideas 
for us to take up in the question and answer session.
    I would like to recognize our old friend, Leo Carey, 
Executive Director of Government Services for the National 
Safety Council. Leo currently directs a project to improve mine 
safety in China that is funded by the U.S. Department of Labor. 
The project is designed to work with the relevant Chinese 
Government bodies to develop rescue techniques and train miners 
and mine personnel in safe operational methods. Leo has 
directed a number of programs of health and safety for the U.S. 
Congress and various Executive Branch agencies. He is the 
director of the World Safety Congress Project and serves as the 
project director for the National Safety Council's Executive 
Assessment of Safety and Health Management Systems for the U.S. 
Department of Defense.
    Leo, welcome. You did not come as far as our British 
colleagues, but you have been traveling and we are glad that 
you are here. Thanks.

   STATEMENT OF LEO CAREY, EXECUTIVE DIRECTOR OF GOVERNMENT 
     SERVICES, THE NATIONAL SAFETY COUNCIL, WASHINGTON, DC

    Mr. Carey. Well, thank you. Thank you for the opportunity. 
No, I just came from across town, so I may be the shortest -
traveled representative, certainly, of this group.
    Let me just summarize, because I have not yet submitted a 
formal statement. I will do so afterward.
    I am Leo Carey. I am with the National Safety Council. I am 
the project director for the National Safety Council's project 
to improve mine safety in China, and as such I am here to 
discuss that project today.
    I only speak representing the National Safety Council and 
as the implementer of the project. I do not speak for the 
Department of Labor, of course, or for the Bureau of 
International Labor Affairs [ILAB], at the Department of Labor.
    Let me quickly give you a little background on the National 
Safety Council. We have been around since 1913. Our mission is 
basically to educate, protect, and influence society to adopt 
safety, health, and environmental practices.
    While we are a private organization and not a government 
agency, we have been chartered by the U.S. Congress to be the 
safety and health advocates for the nation. We have over 45,000 
member organizations and several thousand volunteers who help 
the National Safety Council in its business.
    We responded to a Department of Labor solicitation in 
August 2002. The solicitation asked applicants to develop and 
implement a program to improve mine safety in the People's 
Republic of China. There were a couple of things in that 
solicitation that are important. One, we were informed that the 
project would be managed actively by the Department of Labor's 
Bureau of International Labor Affairs as a cooperative 
agreement. For a number of reasons, ILAB would be an active 
manager in the project, and ILAB officials have been so, and 
ILAB has been a very good partner and have given us excellent 
cooperation. They also said that the applicants must form 
partnerships with organizations in China to help implement the 
project, with the idea that there would be sustainability as a 
result.
    That solicitation required that the applicant's program 
institutionalize mine rescue technique training for government 
and mine personnel and that the program strengthen the capacity 
of government personnel to promote workplace safety and health 
in Chinese mines. The program would train miners and mine 
operators in mine safety methods and practices. The program 
would improve enforcement of work safety laws and regulations, 
and have pilot projects with selected coal mines in China to 
implement these things. The successful applicant would travel 
to China with Department of Labor officials to develop a 
program design after the discussions with Chinese officials. We 
were selected as the successful applicant for the program in 
September 2002.
    In February 2003, we accompanied Department of Labor 
officials to China for the project design visit, and 
subsequently submitted the project design to the Department of 
Labor, which ultimately resulted in a document that was signed 
by representatives of both the Chinese Government and the U.S. 
Government in Beijing in November 2003.
    During that time, by the way, was the whole incident of 
SARS in China, and I think that slowed down a lot of the 
development of the project design during that period. The 
project design then has been really in effect for just a bit 
more than a year. The project will be a 48-month project, going 
until the end of September 2007. The funding for the project 
was set at approximately $2.2 million.
    The National Safety Council identified as its Chinese 
partner the National Center for International Exchange and 
Cooperation in China, and they have been our partner, 
technically as a subcontractor, under the terms of the 
cooperative agreement.
    The focus of the project is to improve the mine rescue 
system in China, to improve the overall government enforcement 
and inspection system, and improve mine conditions through 
elimination of hazards. Specifically, we have undertaken a 
number of activities. There was a technical visit to the United 
States of mine rescue experts from China in 2003. Ten Chinese 
mine rescue experts came to the United States and visited the 
U.S. Department of Labor's Mine Safety and Health 
Administration [MSHA], which, like ILAB, has been tremendously 
cooperative and just an unbelievable resource in this whole 
project. The Chinese delegation visited with experts there and 
they visited at the Mine Safety Academy in Beckley, WV.
    The mine rescue delegation went to working mines in West 
Virginia, and the mine rescue teams at these mines interacted 
with the Chinese experts. There were mine rescue demonstrations 
put on by the personnel at the mines. The U.S. coal industry 
has also been very cooperative in this project. They devoted a 
lot of time working with these experts on mine rescue 
techniques.
    There was also scheduled a symposium in China on mine 
rescue, and that is ongoing. That is, actually, this week. 
Recommendations resulting from the deliberations of this mine 
rescue symposium will be developed and sent to the Chinese 
Government.
    The last item under mine rescue will be training mine 
managers, management personnel, and mine rescue team members, 
and that will happen in 2005. Specifically, as part of the 
project, we identified that we would focus on Shanxi Province 
and on Yangquan Mine Group to make improvements. Yangquan mine 
is located in Shanxi Province and training will be provided to 
government inspectors in Shanxi. Training will also be provided 
to mine rescue team members from Yangquan mine group.
    The second component of the project will be improving the 
capability of government enforcement personnel. We scheduled a 
visit to the United States of Chinese Government inspectors to 
interact with U.S. government inspectors. That visit took place 
this year, 2004. Twelve Chinese inspectors came to the United 
States and were able to meet with MSHA officials. They had 
training at the Mine Safety Academy in Beckley, WV, on how MSHA 
enforces its rules and the processes MSHA uses.
    They went to the district office in the Pittsburgh area of 
MSHA and had mine inspectors from the United States interact 
with them and discuss enforcement activities both formally and 
informally.
    They went to MSHA laboratories in the Pittsburgh area and 
to a mine in the Pittsburgh area, focusing on their role as 
government inspectors and how the government inspectors work in 
the United States.
    We have developed training course materials and in 2006 we 
will do the training of the Chinese Government inspectors.
    The third area for the project is improving coal mine 
safety laws and regulations. It is basically a comparison of 
the laws and regulations in China to those in the United States 
and then making recommendations. This is ongoing.
    The fourth area under the project is the training of miners 
and mine operators. We have done a pre-training site assessment 
at the mine group in Yangquan and have developed training 
materials. The actual training itself will occur in 2005.
    In fact, most of the training under this project will occur 
in 2005, even though the project goes to 2007, because we want 
to be able to have time to implement not only the training, but 
the results of the training, and then evaluate it.
    The fifth component of the project is the Pilot Mine and 
that is the Yangquan mine in Shanxi, and we are working closely 
with representatives of that mine group. The concept is the 
Yangquan mine will be a model mine for the Chinese. The Chinese 
are interested in developing a model mine so that they can 
bring others in the country to see that model mine and how 
things are working at the top level. So these mines in Yangquan 
are pretty good mines, as far as I understand it.
    That basically describes the project. We have received 
excellent cooperation from ILAB, MSHA, from the U.S. Embassy in 
Beijing, from our partners in China at the National Center, 
from the Chinese Government at SAWS, both nationally and 
locally, from the Chinese Mine Rescue Command Center, which was 
established in 2003, and from officials at the Yangquan Mine 
Group and from the North China Institute where much of the 
training will occur.
    We have had excellent cooperation. While we have made a lot 
of progress, there is still a lot to be done, and in particular 
in evaluating how well the project has been achieving its 
objectives. Thank you.
    [The prepared statement of Mr. Carey appears in the 
appendix.]
    Mr. Foarde. Thank you, Leo. Really useful.
    Let us go right, straight away, to the question and answer 
session, because we have got a lot of very interesting ideas 
and information out on the table to work with. I will exercise 
the prerogative of the Chair and begin by asking Dave Feickert. 
To pick up on your second point in your summary, which is a 
question I am very interested in, and I am paraphrasing 
something much more eloquent that you said, but I take it the 
point was ``should China have to make the same mistakes that 
were made in the United Kingdom, in the United States, and 
elsewhere, particularly when they are not technologically 
necessary? '' I mean, the technology now exists to correct 
these problems.
    How do you address that question when you get the argument 
back from not only the Chinese, but I have heard it from other 
developing country officials: ``You guys just want to hold us 
down. You want to make our product more expensive and make us 
uncompetitive in the international market, even in our own 
domestic market, by insisting on all these things that you now 
have. Give us a chance to work this up ourselves.''
    Mr. Feickert. Well, the answer, from our own experience, is 
that the safest mines have been the most productive. So, those 
mines that have the most developed technology--it does not 
always have to be the most sophisticated. There are sometimes 
quite simple and elegant solutions to these problems, which is 
rather typical of industry as a whole. That has been our 
experience. So, I think that is the general counter to that 
argument.
    I have some sympathy with that argument made by developing 
countries because it gets mixed up in all kinds of other 
factors, the cost of labor, wages, and so on and so forth. But 
here we are talking about something that is extremely basic. We 
are talking about the right not to be killed at work, the right 
not to be maimed at work. We have an obligation, I believe, and 
I think that is shared by the international trade union 
movement, to pass on what knowledge and experience we have. 
When you travel the world for a miners' union, which I did--I 
worked for the British Mine Workers for 10 years--the thing 
that strikes you is that miners are the same the world over. 
They work in very similar conditions. There are variations. 
Some mines are more gassy than others, some are deeper than 
others, but essentially the work process is very similar and 
the culture of mining is very similar. It does not matter what 
language they speak, whether it is Polish, whether it is Czech, 
whether it is Chinese, whether it is English. It does not 
matter. Whatever accent of English, they are the same the world 
over.
    The fact is, we did not have much choice about going 
through this learning experience. Peter described, I think very 
well, the different stages of it in relation to explosions. 
That is one point. If you looked at it from all kinds of other 
points of view, you would find the same thing.
    In the United States, you also went through it. 
Fortunately, you did not have that total fatality rate. I think 
your record is something like 20,000 since records were first 
kept. Ours was much worse. We have more difficult mining 
conditions. But there is no need, technically, for anybody else 
to go through it.
    Now, then the question becomes, ``how do you transfer this 
technology, and is there any other blockage? Is there a problem 
of intellectual property rights? '' Well, no more so than any 
other technology. It is not a military technology. It is not 
going to be developed into something else, so you do not have 
that problem. But you do have the question of license, and all 
that. Peter and I both know quite well that the British mining 
equipment industry would love to export its equipment, and they 
already do. So would the Americans, and so would other 
Europeans. There is no shortage of desire to do it.
    How do we facilitate it? I mean, it is not that we are 
saying that our government should pay for it all to go to 
China. The Chinese are quite capable of paying for a lot of it 
themselves, perhaps probably most of it. They are already doing 
it.
    If you take another example which is related to this whole 
question of energy, their coal tends to be rather dirty. They 
have a problem with washing it. They are taking it out and it 
is creating lots of environmental problems of the old kind, the 
old, smog-type problems we used to have in Sheffield until the 
Clean Air Act came along. Everybody is happy to have gotten rid 
of these problems. But the Chinese actually have, I think the 
figure I saw, was about 85 percent of the world's super-
critical boilers. These are the most efficient conventional 
coal-fired boilers for power generation. They have 85 percent 
of them already and they are building power stations at a rate 
that is absolutely incredible. Every two years, they build 
power capacity equivalent to the total British electricity 
capacity. Every two years! So we have got to help them solve 
the problem. I think that is the point we are making. So, it 
applies across the face. The intellectual property rights can 
be resolved, as it already has been in other industries.
    Mr. Foarde. Thank you. Very useful.
    Before I pass the microphone on, I know the answer, I 
think, with respect to Leo Carey. But both of you have been 
miners, right? I know you have, Peter.
    Mr. McNestry. Yes.
    Mr. Feickert. No, I just worked for the union.
    Mr. Foarde. You just worked for the miners. All right. 
Thank you.
    Let me pass the questioning on to my friend and colleague, 
Dave Dorman, who is the deputy staff director of the Commission 
and represents Senator Chuck Hagel, our Co-chairman.
    Dave.
    Mr. Dorman. Thank you, John.
    First of all, I would like to say thank you to each of you, 
on behalf of Senator Hagel, for coming today. This is a 
critically important and very timely subject, so our thanks to 
you for informing our Commissioners and other Members of 
Congress on this issue.
    I think it is particularly appropriate that we are 
discussing something this important and something this timely 
on International Human Rights Day, the anniversary of the 
Universal Declaration of Human Rights.
    I have a short question for each of you based on the 
testimony you just gave.
    Mr. Carey, just as a point of information, how easy, or 
conversely, how difficult, was it to find a partner in China 
for the project? Of course, the subtext is, just how interested 
is China in this sort of assistance?
    Mr. Carey. Well, it was an interesting experience, finding 
a partner. We had a very short time to respond to the request 
for application. We have an international unit, so we had some 
contacts around the world, including in China. We were working 
on other international projects. So we originally contacted the 
director of the National Center because we had contacts with 
him, and he was already part of a group that was going to 
submit an application and eventually compete for it as well, so 
he declined to join us, and we found another group. When we put 
in our application, we had that group. So, it was relatively 
easy.
    As it turned out, in the discussions, negotiations, and the 
development of the final project design with the Chinese 
Government, we ended up going back to the Center and partnering 
with the Center. So, I think the ease, for us, was because of 
our international connections and our international activity.
    The interest of all the people that we have worked with in 
the mining community--and by Chinese mining community, I mean 
the mining companies, both local and central government 
officials, and the Center has been exemplary.
    The Center, again, is identified as the National Center for 
International Exchange and Cooperation. Their expertise and 
interest is in coal mine safety. Everyone in the mining 
community that we interact with, I think, is not only very 
interested, but very committed to improving coal mine safety in 
China.
    Mr. Dorman. Good. Well, thank you.
    Pat Dyson has told me that a major reason for the success 
of your program has been your personal energy and enthusiasm 
making it work, so thanks. Thanks for that.
    Mr. Carey. Well, thank you. Thank you, Pat.
    Mr. Dorman. Mr. McNestry, as you were making your 
presentation, I wondered whether mining universities in China 
have safety issues and the history of safety as a part of their 
standard curriculum. Do you know? Is safety part of the 
curriculum in mining universities in the United States and 
U.K.?
    Mr. McNestry. Mr. Dorman, for the last eight years, I have 
heavily been involved in the regeneration of U.K. coalfields 
communities which were decimated by the previous government, 
and that is where I have been involved, directly supported by 
the Deputy Prime Minister.
    Equally, I have been spending my time advising the 
Department and Industry Ministers on the outcome of the health 
claims for mine workers, for which <brit-pound>7 billion have 
been put to one side. So, it is a rather big task.
    With the Chinese, yes, I have met them at ILO congresses, 
the government officials and representatives. In 1993, I moved 
the Mine Workers Charter, on which the Chinese and all world 
miners elected me to speak on their behalf. Without going into 
too many details, we had a delegation in Paris in 1997 and we 
discussed the problems. Then we considered this issue in the 
middle of this year when I sat down and talked to David and 
also sought assistance from the Deputy Prime Minister and his 
department. We knew that something had to start, and it had to 
start fast and move fast. I am not enamored with the slowness 
of action in many departments in the U.K. In fact, I was never 
enamored with some of the actions in the U.K. with respect to 
our own progress. We just did not move fast enough. I think 
certain areas have to be bypassed to move fast.
    No, we have not been contacted to speak on this in China. 
We have looked to see who would do the job if we were invited, 
because the Deputy Prime Minister did raise this in Beijing 
last Tuesday or Wednesday. But we have people that can do it. 
The ex Chief Inspector of Mines is available and he has experts 
who could assist. It certainly would come from a person who is 
very frank, very open, and not necessarily a bureaucratic sort 
of person. I think he would welcome the offer to go out there 
and speak to universities on what we went through, and I would 
leave it at that.
    Mr. Dorman. Good. Well, thank you.
    Just a very quick question, Mr. Feickert, for those of us 
who know very little about the science of mining. Does a small 
mine have to be dangerous?
    Mr. Feickert. It does not have to be, but statistics show 
that in countries where there are small mines, they tend to be 
more dangerous than larger mines. I mean, there are a number of 
reasons for it. The conditions are different. The technology is 
at a much lower level, normally, and the workers are quite 
often not as well trained. In large mines and in medium-sized 
mines, it is much easier to train people because it is an 
economy of scale thing. If you are able to employ a safety 
engineer, for example, then you can do a lot. The safety 
engineer can do a lot. Whereas, a small mine would not have a 
safety engineer. It will only be the mine manager who has the 
mine engineering qualifications. So, there are a number of 
different reasons for it. I mean, that is certainly true of 
Britain. Peter knows quite a bit about that as well.
    Just a point, a quick answer, to the Chair on my 
background. Before I retrained as an ergonomist, I worked in 
industry for 10 years and I came within 30 seconds of being 
crushed to death in a container yard, so I know what it means 
to be in that situation. I know it was a safe industry, but it 
can still happen and it really takes some effort to make sure 
that it does not happen.
    Mr. Dorman. Thank you.
    Mr. Foarde. Susan Roosevelt Weld is the general counsel of 
the Commission, and I will turn it over to her for questions.
    Susan.
    Ms. Weld. Thanks, John. My first question is about the 
money that it takes to make the necessary improvements. Maybe, 
Mr. Carey, you could answer us on this. A similar question in 
China is HIV/AIDS, which is, again, a world problem, not just a 
Chinese problem.
    Mine safety is a world problem, as some of you have noted. 
But in China, progress on HIV/AIDS has been difficult because 
the money was not being sent down from the central government 
to the local places where it needed to be spent. Is that an 
issue now with mine safety? What can happen in China, as in the 
United States, is that the government makes laws and then tells 
the local governments to fund whatever has to be done, to find 
the money to fund it themselves out of existing budgets.
    Mr. Carey. Well, it is not something that we have really 
evaluated in the project, so I really cannot say definitely if 
that is the problem or not. In the pilot mines we have worked 
with, there seems to be funding available to make changes. 
Whether that is true throughout the system, I do not know. I 
mean, I have read things and I have an idea, but it would be 
speculation. But I do believe that the technology, the 
knowledge, is there.
    I do not think that it is a matter of the Chinese not 
knowing what to do. I think they know. They have great experts. 
The people that we have talked with are very knowledgeable. I 
have observed debates and discussions about how to do things. 
The Chinese have people that are very knowledgeable and know 
what to do.
    Why this knowledge is or is not being implemented is, I 
think, a significant issue. Whether there are funds available I 
think is a matter that should be looked into, but we have not 
done that under this project.
    Ms. Weld. One question, which may or may not be a short 
one. I think, Mr. McNestry, you mentioned the role of churchmen 
in forming investigatory commissions and in improving the 
conditions in mines in England.
    Mr. McNestry. In the early stages.
    Ms. Weld. Yes. And I wonder, what was the role of the 
religious community? Was it helping to educate the miners? Or 
raising the consciousness of people in government? What was the 
particular role?
    Mr. McNestry. It was different with different churches. 
With the Methodists, it was about the loss of life. With the 
Church of England, it is on record: it was about bare-breasted, 
naked ladies pushing tubs up the roadway with naked mine 
workers near them. So, it came from all ends. They all had 
different reasons to see changes to the regulations. But once 
it started, the politicians took over and ran with it. It was 
only initiated by the churches, if you want. After that, the 
politicians then got on board every time there was an explosion 
or a disaster. It then rolled forward in a program of its own.
    Ms. Weld. Thank you very much.
    Mr. Foarde. We always give the opportunity to question the 
panel to the person on the staff who is responsible for 
organizing the roundtable, and in this case it is our friend 
and colleague, Pat Dyson, who is our senior counsel for labor 
affairs.
    So, Pat, over to you.
    Ms. Dyson. I want to thank everybody for coming. It has 
been very useful, obviously. You can tell by the questions 
asked so far.
    What I would like to know from Mr. Feickert is you said 
that the solutions to some of the major problems in mine safety 
in China could be low cost. Do you have any estimate of how 
much it would cost just to cut the fatalities in half, for 
instance, for equipment and for training? Is this a large cost 
issue or are there small-cost ways of using this technology?
    Mr. Feickert. Well, I will answer to begin with, and 
perhaps Mr. McNestry will want to add something. Our experience 
has been that it is the combination of safety organization and 
technology. Mine workers' unions in Britain, and in most parts 
of the world, have never opposed technological developments 
because, by and large, they lead to an improvement of working 
conditions and of safety.
    One of the very earliest moves in terms of organization was 
the election by the mine workforce of a workman's inspector. 
This started as early as 1872 in Britain. That was the first 
legal basis for it. What happened was that this role was 
recognized formally in law in 1911 by the Coal Mine Safety Act, 
which also officially recognized the role of pit safety 
supervisor. It did a number of different things. The workman's 
inspector was selected from among experienced miners, and was 
elected by the workforce. It was somebody who had had a 
minimum, as it came to be, of five years' practical experience, 
and was properly trained in specialist courses and was part of 
the whole safety culture. The workman's inspector could take a 
whole shift to go around a mine and inspect every part of the 
mine underground. There were also worker representatives, 
safety representatives, for the surface. And the inspector was 
also able to make a report that was sent to the government 
mines inspector, and the government mines inspector was obliged 
to act on the basis of that report.
    There are a lot of other elements or powers that were 
associated with that act--that Mr. McNestry referred to--of 
1954, which was the safety bible of the modern British coal 
industry.
    So adding those organizational aspects and the training and 
the specialists, it is not that expensive to train worker 
safety representatives, especially if they are experienced 
people. They already know most of it. You put it together with 
a technology package which is appropriate to the conditions or 
the problems that a mine faces, and not all of that is 
expensive.
    Now, I was reading that China recently installed gas 
detection systems in quite a number of its large mines, at the 
cost of $418 million. I mean, that is a considerable sum of 
money for a developing country to commit. I am sure that it was 
necessary, but in order to make the whole thing work properly 
you have got to have the parallel safety organization working 
together with the technology. I think that is part of the 
transition that they are going through. They have not got all 
these things synchronized or working most effectively together. 
That is the impression that I have.
    So for the costs, I cannot answer your hypothetical 
question. It would be nice to know, because it is the kind of 
thing that our politicians want, though, is it not? They want 
something in one sentence that summarizes everything.
    Well, I think the sentence that they have got to consider 
is that China produces 35 percent of coal output globally and 
80 percent of fatalities. If that does not persuade some of 
your people and our people to get their backs in behind this 
effort, then I do not know what is going to.
    Mr. Foarde. Really useful. Thank you.
    Let me now recognize our friend and colleague, Carl 
Minzner, who is a senior counsel on the Commission staff, for 
some questions.
    Carl.
    Mr. Minzner. Hello. Thank you. Thank you all. It has been 
an interesting opportunity for me to learn about the details of 
the coal mining industry. I certainly have to confess some lack 
of knowledge with regard to the technical aspects of coal 
mining.
    However, let me just follow up on something, Mr. Feickert, 
that you just mentioned which I was quite interested about. You 
mentioned the drastic improvements of mine safety in the U.K. 
were in part the result of organizational changes, such as the 
development of safety organizations, that appear to have been 
primarily worker driven.
    That was to say that you mentioned that the workers 
themselves had the ability to appoint the safety 
representative, and this person had the responsibility of 
having liaison efforts with the government mine inspectors.
    Similarly, Mr. McNestry, when you talked earlier about the 
parliamentary commissions, I got the strong sense that part of 
the reason for the improvement in mine safety was the result of 
popular pressure, organized groups that were bringing pressure 
to bear on government to address these issues. Now, as you all 
know, that type of organized political pressure in China is 
much more limited.
    Could you, first, from a historical perspective, talk a 
little bit more about the importance of these elements in the 
improvements in the West, and then also for Mr. Carey, could 
you also talk about to what extent there is any recognition in 
China that perhaps some of these independent miners' 
organizations that are focused on safety might be an effective 
way of pressing the issue or improving miners' conditions? 
Thank you.
    Mr. McNestry. We did start by saying the churches led the 
charge initially, and the politicians did take over. Statutory 
authority was placed on the people in charge of a district in a 
mine, known as a deputy. The same occurs in France. In Germany, 
he is called a miner, but he exists in Australia, exists in 
Canada. You have an in-charge person, which is something 
similar, but not quite the same statutory authority. It is 
total authority for mine operations, statutory authority. The 
deputy has statutory responsibility.
    He does an inspection every four hours and he signs for it. 
If something is wrong on that report, it is his responsibility. 
That report goes to managers, and they counter-sign, and it is 
left for the government inspector to see. That continues 
throughout the year. That is the sort of working practices we 
had, along with the workman's inspector, who does a signed 
report, and that sits on the table. If the government inspector 
comes along, he will review the workman's inspector's reports 
that went out. We are not aware of any pressure that exists at 
this point in time, but it may come.
    I did address the Chinese Minister for Coal, Mr. Zhang 
Baoming, two years ago in London, and he had a 25-man 
entourage. He was talking about running down certain sections, 
which have been reversed, of course. But when I spoke, I 
mentioned, rather than just do it, he has to consult with the 
people. He has to take people on board, take notice of their 
position. His whole entourage was in agreement. He kept a very 
straight face, but he was the only one that did. So, I got the 
impression there was a change, where people are beginning to 
feel like you can take the people with them.
    On costs, they have bought used high-standard face supports 
systems from the U.K., at significant cost. Yet along with 
those installations, other equipment for safety protection went 
hand in hand with face installations being equipment which 
would switch off power if methane levels got high, it would 
beggar belief for me to think that they bought the system 
without buying the protections for the system.
    On things like the stone dust barriers, which really 
restrict the ignitions at their source, these are simple 
hangers on the side of an arch support with lattice boards 
across full of the stone dust. They can be made locally. So, I 
do not see how these systems would incur great cost, apart from 
the time of putting up the barriers.
    The tube bundle system, which was simply tubes, which ran 
from the surface--it would not say on the licenses, but such 
tubes no doubt are made in China. Everything we buy in the U.K. 
and in America, there are lots made in China. The tube simply 
draws down, from a pump on the surface, air from a district of 
the mine. It sets off an alarm if that air contains methane 
levels and carbon monoxide levels higher than the maximum 
allowable levels. So, they are simple devices. There are 
computerized systems, computer-driven, which will tell you 
where machines are, what the atmosphere is in certain areas. 
But things like the barometer on the surface of the mine, with 
all men taught to read the barometer and see if it is going 
down or rising. These are probably being done, and they are not 
expensive. What we are saying is we do not think that 
technology is a problem to the Chinese.
    If there is some technology that they have not got which 
they should want, they should be made aware of it. The 
difficulty is that we do not know what they are aware of in the 
municipal mines and in the unlicensed mines. In fact, the 
unlicensed mines, I understand, should not exist.
    Mr. Foarde. Just to clarify, when you say that they bought 
the equipment, the Chinese Government has bought it for state-
owned mines or is it the private operators that are also buying 
it?
    Mr. McNestry. No. If you can picture the closures in the 
U.K. over the years, most of the mines that closed had the most 
modern equipment. Each shield support is about four feet wide. 
It consists of four or six hydraulic legs. It is run by a 
hydraulic power pack. You will have almost two hundred of these 
on a face, which support it and which advance forward.
    Mr. Foarde. Right.
    Mr. McNestry. But the cost of each one, which they would 
pay for, is much cheaper than the original purchase price which 
the U.K. government paid, or rather British Coal paid. Well, 
that technology--not just from the U.K., but technologies come 
from all countries--goes to China, which, collectively, is a 
significant cost. My understanding is that safety protections 
for equipment is relatively cheap.
    Mr. Foarde. Useful. Thanks.
    I think there is a question on the table to Leo, though. If 
you would go ahead, that is fine.
    Mr. Carey. Well, I could not agree with Dave more when he 
said that the issue here is technology and organization. I 
heard ``organization'' maybe a little differently than the 
question might imply, in that it is not ``organizations,'' it 
is ``safety organization.'' There are a lot of things that go 
into that, organizations being one of them.
    But I really think that this is a significant interest to 
the people from China that we have worked with under the 
project. That is, how to organize, how to get things done. The 
issue is not knowledge of the technology, but how do we 
organize to ensure that it happens. I think that a lot of 
discussion we have had, is about how the government organizes 
to ensure that the mining laws or the mining regulations are 
adhered to. There is a lot of discussion about that question, 
and a lot of interest on the part of the Chinese on how we in 
the United States do that kind of thing. How does the central 
government ensure that the local government is even following 
the procedures that the central government has put in place for 
the government inspectors to follow? How do you know they are 
doing that? They have a lot of interest in this issue.
    At MSHA, they audit their local offices to ensure that the 
local offices are following the central office procedures. 
There was a lot of discussion with the Chinese on how to 
organize and how to develop a safety culture.
    In the United States, the mining community is really that, 
a community, and it includes every single miner. In contrast, 
in China, a lot of these miners are what they refer to as 
migrants, meaning people coming from the rural areas to take 
jobs. They do not have a mining background. They have not 
participated in a mining culture in their lives. That is a real 
concern. So I think this whole issue of organization is 
extremely important and is a key issue in our discussions in 
implementing the project in China.
    When you talk about organizations, and particularly 
independent organizations, I am not sure that such a thing 
exists in China. I think there are real system issues beyond 
mining that have to be dealt with. At the same time the 
Department of Labor put out the request for applications for 
this project, they put out a similar one for applications for a 
project to work on the rule of law in China. As you pointed 
out, and as was testified to here, the implementation of laws 
in the U.K. apparently corresponded to increases in safety 
improvements.
    Whether or not that will happen in China remains to be 
seen. There have been changes in the law. But in China, just 
because there is a law, whether it is implemented and thereby 
safety improved, is an open issue. So I am not sure that there 
exists the same kind of independent organizations to put the 
pressure on. There may be other ways that pressures are brought 
to bear to make changes, but I am not sure it is through 
independent organizations.
    Mr. Foarde. Dave, would you like to address that, too, 
please?
    Mr. Feickert. Yes, if I could just supplement that answer, 
because I think I understand the point you are getting at, and 
Leo has raised it as well. From a trade union point of view, 
the situation in China is changing. Everything is changing. 
There is not a single part of that society that is not 
changing. It is in a state of flux, it is fluid.
    The British Trade Union Congress [TUC] General Secretary 
was recently in China with a team from the British trade 
unions, and for the first time had high-level discussions with 
their opposite numbers and the All China Federation of Trade 
Unions.
    After the discussion, which was very practical--British 
trade unions tend to be rather pragmatic and practical; they 
are a bit famous for it around Europe--the Chinese trade unions 
asked the TUC to help them train their local representatives in 
health and safety and in collective bargaining.
    Now, that is quite a development. It is not the kind of 
request that we have had before. I worked as a TUC official for 
10 years in Brussels and never saw such a request. So, that is 
one important change that is taking place.
    The other thing, I think, and this is very much the case in 
our own experience, is that the safety organization in the 
British coal industry, particularly the role of the workman's 
inspector and also the pit safety supervisor, was backed up by 
strong trade unions representing those two groups. The National 
Union of Mine Workers, and the pit deputies, had a separate 
union. Peter was the General Secretary of it. We were extremely 
well organized. In the 
National Union of Mine Workers, we employed our own 
professional mining engineers. They were in a safety 
department, but they also worked on mine development plans 
together with the 
employer.
    We had 20 mining engineers at one point. These were men who 
had been mine managers. Some of them had been area directors of 
whole regions. So when they picked up the telephone to the 
chief mines inspector, or the government inspector, then the 
government inspector, or chief inspector, listened to every 
word they said. There was an important set of relationships 
there, and that is what helped to create the progress that we 
were able to achieve. So, it is important. That is a crucial 
thing.
    The workers' representatives need to be supported, and not 
only trained, but they also have got to be experienced people, 
and they have got to be supported by their own organization. 
These situations have all been differint in China. It is 
difficult to say where it is going to go. I am more optimistic 
about where it is going to go, personally.
    Mr. Foarde. Thank you all.
    I would like to recognize our friend and colleague, Keith 
Hand, who is also a senior counsel on the Commission staff.
    Keith.
    Mr. Hand. Thank you all very much for an interesting 
discussion.
    We touched on this issue, but I want to address one 
question a bit more directly. In the small and private mines, 
to what extent is the problem based in sort of willful 
violation of the law and to what extent are we just talking 
about a lack of education? Also, is there any resistance from 
the miners to any of the safety improvements that we were 
talking about?
    I was struck by Mr. McNestry's comment that there were some 
accidents in England because people had smuggled cigarettes 
into the mines. Is there any objection to some of these safety 
standards as inconvenient or bothersome by the miners 
themselves? Thank you.
    Mr. McNestry. The only contact we had was with two persons 
who expressed disappointment with the municipal mines and the 
small, legal mines. They thought big achievements were being 
made in the state mines. We were not even sure at the time they 
told us that that they were allowed to tell us anything. So, 
there is little trade union contact, as far as I am aware, with 
the actual mine workers in the villages.
    Mr. Feickert. From our own experience in small mines, there 
tends to be both those factors. It is a question of ignorance 
on the one side, but occasionally you could say negligence. Let 
us put a legal concept on it for a lawyer. From what I hear and 
what I have read on the small mines in China, I have heard, as 
I am sure you have, of horrific incidents that happened to 
miners in small mines, and how they have been killed. I think a 
mine manager was jailed for a very long time because he sealed 
the mine after the miners had been killed, and effectively 
entombed them. That reminds me of the 18th century in Scotland, 
where miners were not even recognized as being properly human 
and were not allowed to be buried in the official churchyard. 
So, we have come a long way from there, and that is something 
that can change, and it has got to change there as well.
    Mr. Foarde. Let me pick up the questioning now by doing 
just a few things to clarify.
    Dave, in one of your points you anticipated the question I 
had about non-fatal injuries and the rates thereof. And if I 
understood correctly, you said that they are four to five times 
the rate of fatal injuries. Can you, just for the record, 
clarify what types of non-fatal injuries are most common, as 
far as you understand it? One can imagine what the range might 
be, but it would be good to hear from someone who is expert.
    Mr. Feickert. Well, Peter also spent every waking hour 
looking at this question, and was probably dreaming about it at 
night as well half the time in the old days. We are talking 
about really serious injuries. We are talking about broken 
bones, we are talking about concussions, we are talking about 
crushing, we are talking about fingers ripped off in machinery, 
we are talking about the foreground, where people are crushed 
but not killed. So, it is going to involve a lot.
    I think different countries classify major injuries in 
different ways and different levels of severity, and I do not 
think there is an internationally accepted classification. In 
Britain, we have tended to have a classification system where 
we have fatal accident, we have major injury accidents, and we 
have minor accidents.
    The lost work accidents feature in the statistics, and it 
is all measured by 100,000 man shifts. So, it is a measure of 
exposure. It is not a measure of how much is produced.
    Mr. Foarde. Right. But as far as you know, do the Chinese 
collect those sorts of statistics and publish them as well, and 
will they be the same categories or are they different?
    Mr. Feickert. As far as we know, their statistics from the 
large mines that they give to the ILO seem to be reasonably 
accurate. I am not in a position to challenge the accuracy of 
those. I was talking to the director of safety at the ILO who 
actually is an Australian mining engineer, who was recently in 
China signing that agreement I was telling you about. He tends 
to think that those figures are reasonably accurate. But they 
do not calculate them in terms of exposure because I do not 
think they have the information, the man-time statistics. Once 
again, it is a question of organization. It is easy for us to 
do it these days, but it took us rather a long time to learn 
how to do it meticulously.
    Mr. Foarde. Thank you.
    I would address a similar question to Peter about your 
understanding of the formal study of causes of mine explosions. 
For example, you have given us a very rich set of statistics 
and studies from the U.K. But as far as you know, is anybody in 
China doing this sort of data collection and analysis in the 
mining universities or in the government, or anywhere?
    Mr. McNestry. Not to my knowledge. All we have is the 
documentation that you have, and it does not even describe what 
the initiator of the explosion was, whether it was coal dust or 
methane. We do get fewer explosions of methane alone, which is 
rare. It nearly always includes coal dust. That knowledge, we 
do not have.
    Can I just answer one question?
    Mr. Foarde. Sure, please.
    Mr. McNestry. Reader describes specifically what is a major 
injury in the U.K., and it is an amputation, a fracture above 
the wrist, above the ankle, unconsciousness, a burn to a 
certain degree, poisoning, et cetera. There is a very specific 
list of what is a major injury. We do tend to look at fatals as 
a fact. We got a bit nervous when the Washington Post explained 
over here that major injuries were not what they were reported 
to be. There were some companies not exactly reporting 
correctly the number of major injuries they had.
    We felt that we were comfortable in the U.K. until we 
examined our statistics, and we learned there was evidence, and 
it was proven, that the same sort of things happen in the U.K. 
With a fatal injury per 100,000 man shifts calculation, you 
know you are on solid ground.
    Mr. Foarde. Right.
    Mr. McNestry. A horrible thing to say, but you know that as 
a fact. Statistics do move up and down, when considering major 
accident figures but fatal injuries based on 100,000 man shifts 
are considered as a sad but reliable tool for measurement.
    Mr. Foarde. I have one more question and I am not sure to 
whom to address it. Leo, I think you talked about a comparison 
that has been done of U.S. laws with Chinese mining laws. Is 
that right?
    Mr. Carey. Yes. We are in the process of doing that.
    Mr. Foarde. That is part of the project? Good. Do you, 
Dave, or Peter, know if any such thing has been done with 
respect to Chinese and U.K. mining laws?
    Mr. Feickert. As far as we know, that has not been done. I 
think the thing about regulations is that it is quite often 
possible to have good regulations on paper. It is making them 
work that counts, and all the rest of what we have been talking 
about is crucial to that. So, you have got to have good 
regulation. The U.K. developed a very good regulatory framework 
for its coal industry, but it has the other things as well.
    Mr. Foarde. Without being prompted, you have identified one 
of the basic themes, I think, that we have teased out of the 
facts over the last two or three years in our own annual report 
process, that China has begun to develop, in the whole realm of 
rule of law, some pretty good rules and some pretty good 
regulations, sometimes world-class ones, but the implementation 
of them, getting them done, particularly at the provincial and 
local levels, is very difficult.
    Let me ask Dave Dorman if he would like to ask another 
question or two. Our time is getting short.
    Mr. Dorman. Yes. Just two short questions for 
clarification. Mr. Feickert, you mentioned in your written 
statement that China has signed, but not ratified, the ILO 
Convention on Mine Safety. Could you help us understand the 
obstacles in China that prevent ratification. Once ratified, 
what does it mean for China? Does it open doors to additional 
assistance from the ILO?
    Mr. Feickert. Well, I was talking to the ILO about this and 
they have been conducting their own campaign to persuade the 
Chinese Government to sign up to the 1995 Convention. We are 
trying to persuade our government to sign it as well, because 
they have not done it. The United States has signed.
    Our government tends to take a kind of holier-than-thou 
attitude to these kind of things because they say that we are 
better than they are. That is irrelevant from our point of 
view. This is an international measure. It was worked out by an 
international body. It had all the experts from the coal 
industries there, they had the governments there, the employers 
there, the trade unions there. This is a common agreement. It 
was thrashed out. There were agonizing arguments over 
particular aspects of it, but it is there, and a number of 
countries have signed it.
    I personally would agree with the safety director of the 
ILO, that if the Chinese Government did sign on to it, then it 
would open doors. It would make things easier. The Convention 
has a lot of the aspects that we have been talking about built 
into it. It has a worker safety representative. It has the role 
of pit safety supervisors. It is, if you like, the distilled 
experience of the international mining industry.
    It is not just coal mines, by the way. It is the distilled 
experience of the international mining industry, but it is 
based on minimum standards. So, it is not setting impossible 
targets. It is not saying to any country, you have got to have 
the best standards that have been achieved anywhere. These are 
minimum standards. That is how the ILO operates. That is a 
sensible approach to take. Perhaps we should aim for the 
Chinese and British governments signing up on the same day.
    Mr. Dorman. One question for you, Mr. Carey. You mentioned 
in your presentation that part of your project involves helping 
to construct a model mine. We all know that models, like this 
one, could be an important impetus for change in China, and 
have been part of developmental experiments in China for some 
time.
    You mentioned in your statement that the purpose of the 
model mine was, in some sense, to be a demonstration project 
for the international community. Is there also a sense in China 
that this model mine will assist in training other groups that 
are either upgrading or managing mines throughout the country?
    Mr. Carey. In our proposal, the National Safety Council was 
thinking of it in terms of a pilot mine that we would take a 
typical--if there is such a thing--mine, apply our knowledge, 
our training, and see if safety improved. But when we engaged 
the Chinese representatives in the discussion about finalizing 
the project design, they wished to make it a model mine. But 
the model was not, and I did not mean to imply, it was for 
international purposes.
    The idea behind the model mine, in their mind, which we 
ultimately agreed to, was to make this a mine that the other 
mining groups in China could come to visit, see how it is being 
done correctly, and go back and take that information about how 
it is being done correctly and disperse that throughout the 
country. That is ultimately how we ended up with the concept.
    Mr. Dorman. Good. Thank you.
    Mr. Foarde. Let me award the privilege of asking the last 
questions of this morning to our colleague, Pat Dyson.
    Pat, please.
    Ms. Dyson. I would like to ask Leo a question, but it 
really comes from listening to Mr. Feickert and Mr. McNestry. 
They seemed to indicate that the election of safety inspectors 
within the mines, in other words, people that they themselves 
know and trust, was the beginning of the safety regimen in 
Britain.
    Have you had any discussions with the Chinese about any 
such selection system by miners? There has been some 
experiment, as you know, on electing safety committees in shoe 
factories in the south. But have you planned, or do you plan, 
to discuss the idea of some self-selection?
    Mr. Carey. I think our focus has been, and will continue to 
be, on involving the workers in mine safety at the mining 
level. How those people are involved, whether they are selected 
by superiors or whether they are elected by their peers, I do 
not think is something that we have addressed one way or the 
other.
    Our focus is involving people at all levels, including 
miners themselves, in safety, so we have not addressed the 
election issue, no.
    Mr. Foarde. If you have another one, go ahead.
    Ms. Dyson. No.
    Mr. Foarde. Well, our timing is perfect because our 90 
minutes has gone very quickly and I do not want to try the 
patience of our three distinguished panelists. Our audience has 
also been very patient.
    I would just say this is the final formal public activity 
of the Congressional-Executive Commission on China for the 
108th Congress, and we hope to see all of the people in the 
room, and many others, for similar activities in the 109th 
Congress beginning in January.
    So it is my privilege, on behalf of Congressman Jim Leach 
and Senator Chuck Hagel, our co-chairmen, to thank Dave 
Feickert, Peter McNestry, and Leo Carey for coming this morning 
and illuminating this fascinating topic.
    There is much more to be said and we could go on for quite 
a bit longer, but, God willing, we will have another 
opportunity as we will all keep monitoring this situation in 
China and trying to make improvements where we can, and give 
the type of help that you have so eloquently given.
    On behalf of the whole Congressional-Executive Commission 
on China then, I would like to wish everyone happy holidays and 
a prosperous and peaceful 2005, and we will bring this one to a 
close today. Thank you.
    [Whereupon, at 11:30 a.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Dave Feickert

                           DECEMBER 10, 2004

    The global economic and energy context--last year China contributed 
a third of world economic growth. As a result of the size and speed of 
growth, China's energy demand has been increasing rapidly, with 
electricity generating capacity equivalent to total UK capacity being 
added every 2 years. This has led to a rapid increase in both 
indigenous and imported energy use, leading to upward pressure on 
international prices, especially of oil and coal. Chinese energy demand 
is not only strategic for its own economy, but it has become a 
strategic factor in global demand, price structure and, potentially, 
supply.

                        COAL PRODUCTION IN CHINA

  <bullet> Chinese coal production increased from 929 million tonnes in 
        2001 to 1,431 million tonnes in 2003 (BP 2004 Statistical 
        Review of World Energy--converted from Mtoe to metric Mtce). 
        Actual physical tonnage was 1.7 Bn tonnes in 2003 which, by 
        August 2004, was 15 percent higher than for the same period in 
        2003.
  <bullet> With such pressure on production, pressure flows through 
        onto working conditions, especially as the industry is so 
        various in its nature. In villages, some small mines are 
        virtually equivalent to the ``Bell pits'' existing in 18th 
        century Britain, while large new mines elsewhere are highly 
        mechanised. Small mine output increased by 29 percent in 2003 
        (36 percent of total); ``county'' mines make up 17 percent of 
        output and large state mines produce 48 percent of output.

                      COAL MINE SAFETY STATISTICS

  <bullet> Figures provided to the ILO reveal 6,434 fatalities in 2003, 
        561 fewer deaths than in 2002. The first 6 months of 2004 show 
        346 fewer deaths than in 2003. In 2003 the fatal accident rate 
        in large mines was reported as 1.1/Mt; in county mines, 3/Mt; 
        in small mines 7.6/Mt. The US Mines Rescue Association has 
        tabulated the main location by mine site for fatal accidents in 
        2002 (attachment one).
  <bullet> Given the nature of the industry the safety and health 
        problems common to coal industries elsewhere often exist in 
        more dramatic form: dust/heat/noise--silicosis, pneumoconiosis, 
        hearing loss and vibration; gas detection, fire and explosion 
        prevention are major issues; bureaucratic problems in emergency 
        response; inspection, especially in smaller mines, is 
        inadequate; training is limited to larger mines; mines with a 
        single entry/exit (not in compliance with ILO C176 Safety and 
        Health in Mines Convention, 1995).

            HISTORICAL COMPARISONS--THE EXPERIENCE OF THE UK

  <bullet> Over 100,000 miners have been killed at work in the UK since 
        national records were first kept in 1850. Many thousands died 
        before that date and hundreds of thousands have been seriously 
        injured at work or were hit by serious occupational illness.
  <bullet> During the second part of the 20th century the UK came to 
        have one of the lowest accident rates in the world, but this 
        took more than a century of sustained effort to achieve. In 
        1910, when the UK workforce was above 1 million men, 1,818 
        miners were killed in mine accidents. In the peak production 
        year of 1913 (287 Mt) 1,785 were killed, giving a fatal 
        accident rate per Mt slightly higher than the current Chinese 
        rate (6.2/Mt vs. 5/Mt).

                          UK SAFETY STRUCTURE

  <bullet> By 1911 the UK had a well-structured system of statutory 
        safety inspection, a statutory role for pit safety supervisors 
        (deputies) and a statutory role for worker inspectors (elected 
        by the workforce and providing a statutory inspection report), 
        a role that was created originally in 1872. (More detail is 
        provided in Mr. McNestry's evidence.)
  <bullet> Moreover, the industry had a trade union structure that re-
        enforced and defended these statutory functions.
  <bullet> Following nationalisation, much more progress was made in 
        1946 with the introduction of a system of safety consultation 
        operating at all levels and later, with the 1954 Mines and 
        Quarries Act, the ``safety bible.'' As modern monitoring and 
        detection technologies became available it became possible to 
        improve safety still further.
  <bullet> By the late 1980s the UK deep mine industry had become one 
        of the world's most technologically advanced. The rapid closure 
        of the industry in the 1990s had little to do with either its 
        safety or cost structure but was a consequence of the way 
        electricity supply industry was privatised.

                    PROPOSALS FOR JOINT FUTURE WORK

    A number of initiatives are already being taken, offering support 
to China's coal mining industry:

  <bullet> The ILO is working directly with China on a number of 
        issues, including a successful project to train small-scale 
        miners in Hunan province. It is lobbying the Chinese Government 
        to ratify C176, the ILO Safety and Health in Mines Convention, 
        1995. The US, South Africa, Zimbabwe, Zambia are among the 
        mining countries that have already done so. Within the EU those 
        that have ratified are: Austria, the Czech Republic, Finland, 
        Germany, Ireland, Poland, Portugal, 
        Slovakia, Spain and Sweden. Luxembourg has decided to ratify 
        all ILO OSH Conventions and, during its forthcoming Presidency 
        of the EU, will seek to persuade the others, including the UK.
  <bullet> A joint ILO/ICEM/ICMM delegation (international federations 
        of energy and mining trade unions and employers) will have 
        returned from China by 10 December, after investigating how a 
        tripartite approach from outside as well as inside China could 
        be used to improve mine safety.
  <bullet> A similar and linked Australian tripartite initiative is 
        also taking shape.
  <bullet> The US National Safety Council has a contract to improve 
        mine inspection and mine rescue.
  <bullet> Other initiatives (including in the EU) are being developed 
        that could provide practical support, based on experience 
        gained in other mining countries.


 [In terms of fatalities, accidents are categorised into three types: serious--3 deaths or above; very serious--
 10 deaths or above; extremely serious--30 deaths or above. The following table excludes ``serious accidents.'']
----------------------------------------------------------------------------------------------------------------
                    Province/                                                                   Mine ownership/
 Date (mm-dd)     Municipality      Name and Location         Type             Fatalities         Legal status
----------------------------------------------------------------------------------------------------------------
12-23........  Guizhou...........  Sanchahe Coal       Blast.............  17 dead, 2 injured  Privately run
                                    Mine,                                                       with permit.
                                    Qiannanbuzhou
                                    District.
12-22........  Gansu.............  Xiaonangou Coal     Blast.............  11 dead...........  Check passed but
                                    Mine, Lanzhou                                               permit not
                                    City Jincheng                                               issued yet.
                                    Tourism Co.,
                                    Baiyin City.
12-21........  Guizhou...........  Zhongxin No.3 Coal  Gas buildup.......  12 dead...........  Township and
                                    Mine, Bijie                                                 village mine
                                    District.                                                   with permit.
12-06........  Jilin.............  Wanbao Mining       Fire..............  30 dead...........  State-owned;
                                    Bureau Coal Shaft                                           victims'
                                    No.2, Taonan city.                                          families put in
                                                                                                different
                                                                                                lodgings to
                                                                                                prevent
                                                                                                collective
                                                                                                action.
11-14........  Yunnan............  Guoshuigou Coal     Blast.............  11 dead...........  Privately run;
                                    Mine, Kunming                                               official check
                                    City.                                                       passed; permit
                                                                                                not issued yet.
11-10........  Shanxi............  Taixi Coal Mine,    Blast.............  37 dead, 17         Village mine with
                                    Jinzhong city.                          survivors.          no permit.
11-08........  Shanxi............  Xipan Village Coal  Blast.............  26 dead, 9          Township and
                                    Mine, Yangquan                          survivors.          village mine
                                    city.                                                       with permit.
10-31........  Inner Mongolia....  Changsheng Coal     Blast and blaze...  14 dead...........  Township and
                                    Mine, Baotou City.                                          village mine
                                                                                                with permit.
10-29........  Guangxi...........  Ertang Coal Mine,   Fire..............  30 dead, 5          State-owned.
                                    Nanning city.                           survivors.
10-23........  Shanxi............  Zhujiadian Coal     Blast.............  44 dead, 22         State-owned.
                                    Mine, Luliang                           survivors.
                                    District.
09-10........  Henan.............  Daluzai Coal Mine,  Blast.............  13 dead, 22         Township and
                                    Hebi City.                              survivors.          village mine
                                                                                                with permit.
09-03........  Hunan.............  Qiuhu Mining Co.    Gas buildup.......  39 dead, 16         Shareholding
                                    Ltd, Loudi city.                        survivors.          mining co.,
                                                                                                check passed.
08-29........  Guizhou...........  Sixiang Coal Mine,  Water leakage and   16 dead...........  Privately run
                                    Bijie District.     flood.                                  with no permit;
                                                                                                16 missing,
                                                                                                presumably dead.
08-14........  Jiangxi...........  Yongshan Coal       Blast.............  13 dead...........  State-owned but
                                    Mine, Jingdezhen                                            illegally
                                    city.                                                       subcontracted;
                                                                                                ordered to close
                                                                                                down.
08-12........  Heilongjiang......  Lixin Coal Mine,    Blast.............  11 dead...........  Township and
                                    Jixi City.                                                  village mine
                                                                                                with no permit.
08-10........  Henan.............  Guowan Coal Mine,   Water leakage and   10 dead...........  State-owned.
                                    Zengzhou Mining     flood.
                                    Bureau.
08-04........  Shanxi............  A mine shaft owned  Fire..............  18 dead, 1          Check not passed
                                    by Chiyu Labour                         survivor.           yet.
                                    Services Co.,
                                    Houzhou city.
07-24........  Guizhou...........  Taojiawan Coal      Blast.............  18 dead, 7 injured  Privately run
                                    Mine, Liupanshui                                            with no permit.
                                    city.
07-15........  Shanxi............  Dayangquan Coal     Blast.............  12 dead...........  State-owned.
                                    Mine, Yangquan
                                    city.
07-08........  Heilongjiang......  Dingsheng Coal      Blast.............  44 dead...........  Township and
                                    Mine, Hegang city.                                          village mine;
                                                                                                check passed;
                                                                                                business permit
                                                                                                not issued yet.
07-07........  Guangdong.........  Lianda Coal Mine,   Blast.............  10 dead...........  Township and
                                    Shaoguang City.                                             village mine
                                                                                                with permit.
07-04........  Jilin.............  Fuqiang Coal Mine,  Blast.............  39 dead...........  Privately run
                                    Baishan city.                                               with no permit.
07-03........  Shaanxi...........  Xigou Coal Mine,    Water leakage and   15 dead...........  Township and
                                    Weinan city.        flood.                                  village mine
                                                                                                with permit; 15
                                                                                                trapped,
                                                                                                presumably dead.
06-28........  Chongqing.........  Shuijiang Coal      Blast.............  10 dead, 3 injured  Shareholding
                                    Mine, Nanchuan                                              company.
                                    County.
06-24........  Hebei.............  Yongfa Coal Mine,   Rain storm and      16 dead...........  Township and
                                    Zhangjiakou city.   flood.                                  village mine;
                                                                                                check not
                                                                                                passed; to be
                                                                                                closed.
06-20........  Heilongjiang......  Chengzihe Coal      Blast.............  124 dead..........  State-owned.
                                    Mine, Jixi city.
05-30........  Liaoning..........  Guanshan Coal       Blast.............  14 dead...........  State-owned.
                                    Mine, Beipiao
                                    Mining Company.
05-26........  Hunan.............  Qingshu Coal Mine,  Gas buildup.......  15 dead...........  Township and
                                    Loudi city.                                                 village mine
                                                                                                with permit.
05-23........  Heilongjiang......  Jiacheng Coal       Fire..............  17 dead, 4          Privately run,
                                    Mine, Shuangya                          survivors.          check not passed
                                    city.                                                       yet.
05-15........  Hunan.............  Xinyuan Coal Mine,  Gas buildup.......  18 dead...........  Township and
                                    Loudi City.                                                 village mine;
                                                                                                city and county
                                                                                                check passed;
                                                                                                provincial check
                                                                                                not passed yet.
05-15........  Hunan.............  Hongqi Coal Mine,   Water leakage and   12 dead...........  Township and
                                    Shaoyang City.      flood.                                  village mine
                                                                                                with permit.
05-04........  Shanxi............  Fuyuan Coal Mine,   Water leakage and   21 dead, 2          Township and
                                    Hejin city.         flood, followed     survivors.          village mine
                                                        by fire.                                without permit;
                                                                                                cover-up
                                                                                                attempts by mine
                                                                                                boss.
05-04........  Guizhou...........  Shaft in Liying     Blast.............  23 dead...........  Privately run
                                    Village, Bijie                                              without permit.
                                    District.
05-04........  Hunan.............  Saihai No.2 Mine,   Gas buildup.......  13 dead...........  Township and
                                    Loudi City.                                                 village mine
                                                                                                with permit.
04-25........  Hebei.............  Linxi Coal Mine,    Roof collapse.....  11 dead...........  State-owned.
                                    Kailuan Mining
                                    Bureau, Kailuan
                                    City.
04-24........  Sichuan...........  Huashan Coal Mine,  Blast.............  23 dead...........  State-owned.
                                    Panzhihua Mining
                                    (Group) Co. Ltd.,
                                    Panzhihua City.
04-22........  Chongqing.........  South Mine,         Gas buildup.......  15 dead...........  State-owned.
                                    Zhongliangshan
                                    Coal Field and
                                    Gas Company.
04-19........  Shanxi............  Hanjiagou Village   Blast.............  12 dead, 12         Township and
                                    7.1 Coal Mine,                          survivors.          village mine
                                    Changzhi City.                                              with permit.
04-08........  Heijongjiang......  Donghai Coal Mine,  Blast.............  24 dead, 14         State-owned.
                                    Jixi Mining                             seriously
                                    Bureau.                                 injured, 23
                                                                            injured.
03-29........  Henan.............  Xinfeng Mining      Blast.............  23 dead, 3 injured  State-owned.
                                    Bureau No.2 Mine,
                                    Xuchang City.
02-28........  Liaoning..........  Sanduhao Coal       Fire..............  22 dead...........  Township and
                                    Mine, Fuxin City.                                           village mine
                                                                                                with permit; 3
                                                                                                dead, 19
                                                                                                missing,
                                                                                                presumably dead.
02-11........  Inner Mongolia....  Hongqi Coal Mine,   Fire and carbon     14 dead...........  Township and
                                    Hulunbeierkeshi     monoxide                                village mine;
                                    City.               poisoning.                              check passed.
01-31........  Chongqing.........  Nantong Mine,       Gas buildup.......  20 dead, 2 injured  State-owned; 4
                                    Nantong Mining                                              dead, 16
                                    Bureau.                                                     missing,
                                                                                                presumably dead.
01-28........  Hunan.............  Shantangchong Coal  Blast.............  14 dead, 6          Township and
                                    Mine, Hengyang                          injured, 2          village mine; 3
                                    City.                                   survivors.          dead, 11
                                                                                                missing,
                                                                                                presumably dead.
01-26........  Hebei.............  Nuanerhe Coal       Bblast............  28 dead, 12         State-owned; 19
                                    Mine, Chengde                           injured.            killed in the
                                    City.                                                       first blast; 8
                                                                                                killed in the
                                                                                                second blast the
                                                                                                next day, and 1
                                                                                                missing,
                                                                                                presumably dead.
01-21........  Hubei.............  Tanjiadong Coal     Fire..............  12 dead...........  Township and
                                    Mine, Jingzhou                                              village mine;
                                    City.                                                       check passed.
01-14........  Yunnan............  Shuijie Village,    Gas buildup.......  25 dead (7 women).  Privately run
                                    Wenshan Zhou.                                               with no permit.
----------------------------------------------------------------------------------------------------------------
Sources: China Labour Bulletin, State Administration of Coal Mine Safety Supervision (SACMSS at http://
  www.chinacoal-safety.gov.cn) and State Administration of Work Safety (SAWS at http://www.chinasafety.gov.cn).

                                 ______
                                 

                  Prepared Statement of Peter McNestry

                           DECEMBER 10, 2004

    The question of safety in coal mines is very important to me both 
as a person and as someone who has been at the forefront of mines 
safety for the greatest part of my life. From working as a miner, to 
supervising miners, to representing miners at the UK, European, and 
world level.
    I was employed as a safety official to ensure the good practices 
introduced years before were maintained and improved upon.
    It seems important that lessons learned in mining from years of 
mistakes need not be repeated, that such lessons could be passed on, 
and used by others to everyone's advantage. Producing such a process of 
assimilation has not always proved successful.
    In the UK, each mine disaster was the subject considered by an 
inquiry, Parliamentary select committee, or Royal Commission. The 
findings of these hearings produced reports with recommendations 
culminating in changes to regulations and avoiding repetition of past 
errors.
    Historically, there was no magic formula to avoid mining accidents 
or disasters. Once they occurred, it was not immediately apparent to 
those involved at the time what actions could have prevented them.
    The UK had more than its share of mine disasters, involving 
explosions, flooding, gas outbursts, fires, and roof falls.
    Explosions do identify as the most violent form of coal mine 
disaster and usually they are the cause of the greatest loss of life. 
In the UK some 144 methane/coal dust explosions caused major losses in 
life. These had reduced to six in the 1960s and one in the 1970s in 
which five lives were lost.
    In hindsight, we can recognize how each of those explosions were 
caused (in some, doubts remain) and how the authorities acted to remove 
or reduce the cause. One disturbing point has to be the time taken from 
identifying a cause to introducing the solution. From a UK position 
many of these solutions now exist; so how do we encourage a transfer of 
that knowledge?
    From 1935 to 1938, a Royal Commission took evidence from witnesses, 
considered many reports and eventually arrived at a conclusion. 
Unfortunately the war years intervened, and it was not until some time 
later that the UK Parliament passed the 1954 Mines and Quarries Act.
    This Act and accompanying Regulations led to a dramatic reduction 
in the fatal accident rate from 0.24 in 1955 to the lowest rate of 0.03 
in 1987/88 (per 100,000 man shifts). The two main elements that were 
maintained and improved upon were a statutory responsibility for 
inspection and reporting upon the condition of each working district--
this being completed every 4 hours.
    Also maintained and improved was a provision for the workforce to 
appoint a workman's inspector who shall have the authority to inspect 
workplaces and make written formal reports which must be made available 
to the Government inspector.
    This Act contained provisions relating to Management and Control, 
Surveying, Plans, Ingress and Egress, Roads, Supports, Ventilation, 
Fire and Rescue, Training, Dust and numerous other provisions all 
relative to historic findings from past mistakes.
    Whilst recognizing there may exist a different system of 
administration in China an offer to help reduce the accident rate in 
their mines by an exchange of existing safety knowledge seems the right 
and proper thing to do.
                                 ______
                                 

                    Prepared Statement of Leo Carey

                           DECEMBER 10, 2004

    My name is Leo Carey. I am the Executive Director of Government 
Services for the National Safety Council (NSC). I am also the NSC's 
project director for the project to improve mine safety in China. I am 
here today to discuss that project. I speak only representing the NSC 
as the implementer of the project and do not speak for or represent the 
U.S. Department of Labor (DOL) or the DOL's Bureau of International 
Labor Affairs (ILAB).
    First let me provide some background on the NSC. Founded in 1913 
the National Safety Council has been working for generations to protect 
lives and promote health with innovative programs. In short, we are 
safety and health advocates. Our fully stated mission is ``to educate, 
protect and influence society to adopt safety, health and environmental 
policies, practices and procedures that prevent and mitigate human 
suffering and economic losses.'' We are not a government agency but we 
have been chartered by the U.S. Congress to be safety and health 
advocates for the Nation, a charge that is both a prestigious honor and 
tremendous responsibility. We have over 45,000 member organizations and 
several thousand individual volunteers who contribute to and support 
the efforts of the Council.
    The NSC responded to a DOL solicitation for cooperative agreement 
applications in August of 2002. The solicitation requested that 
applicants develop and implement a program to improve mine safety in 
the People's Republic of China. The announcement said that the 
agreement would be actively managed by ILAB and that applicants were 
strongly encouraged to form partnerships with Chinese organizations to 
submit a joint proposal. The program scope was identified as (1) 
Institutionalize the training of government and mine personnel in mine 
rescue techniques; (2) Strengthen the capacity of government personnel 
to promote workplace safety and health in Chinese mines; (3) Train 
miners and mine operators in mine safety methods and practices; (4) 
Improve the enforcement of work safety laws and regulations; and (5) 
Develop pilot projects with selected coal mines.
    The successful applicant would be required to travel to China with 
USDOL officials on a project design mission trip, draft the project 
design and submit a project design document to DOL for approval.
    The NSC submitted an application and was informed that the 
application was selected by the DOL on September 26, 2002. 
Subsequently, in February, 2003 the NSC traveled to China with DOL 
officials on a design trip. The project document was prepared, 
submitted to DOL, and signed by representatives of the governments of 
the United States and China on November 3, 2003 in Beijing.
    The project document called for the project to be for 48 months, 
(9/30/03 to 9/29/07) with the USDOL funding set at $2,289,898. The NSC 
had identified its Chinese partners as the National Center for 
International Exchange and Cooperation (NCIEC).
    The project objective is to improve safety and health conditions of 
underground coal mines by:

          <bullet> Improving the mine rescue system
          <bullet> Improving overall government enforcement and 
        inspection system
          <bullet> Improve mine conditions through elimination of 
        safety hazards

    The project includes the following components:

    (1) Mine Rescue--Under this task, activities will focus on 
developing an improved mine rescue capability for Chinese coal mines. 
The project will focus on improving the Mine Rescue Command Center as 
well as specific training for trainers (who will directly train 
rescuers from the pilot mine group) and management personnel involved 
directly in mine rescue activities. The objectives for this task will 
be achieved through the following activities: (a) technical visit to 
the United States on mine rescue technology and equipment, systems and 
procedures, (b) Site assessment and data gathering, (c) a symposium in 
China on improving the central mine rescue system, and (d) training 
trainers, management personnel, and selected mine rescue team members 
assigned to the Yangquan Mine Group in mine rescue techniques and 
procedures. Training of Yangquan mine rescue members will be evaluated 
as a part of the pilot activity.
    (2) Improving the Capability of Government Enforcement Personnel--
The objectives of this task will be achieved through the following 
activities: (a) a technical interactive exchange visit to the United 
States focusing on the inspection system and training for government 
inspectors, (b) developing recommendations and course materials, with 
particular emphasis on accident investigation, and better dissemination 
of safety and health information to mine operators and miners, (c) 
baseline data gathering and site assessment, and (d) training of 
inspectors using the train-the-trainers as well as direct training 
method.
    (3) Improve the Enforcement of Coal Mine Safety Laws and 
Regulations--This task will focus on identifying weaknesses, and making 
recommendation for improvements, to the overall statutory and 
regulatory system relating to coal mines in China. The objectives for 
this task will be achieved through the following activities: (a) 
development of a comparative analysis of China's mine safety laws and 
selected regulations as well as procedures to promulgate laws and 
regulations, (b) a technical exchange to the United States to focus on 
the legal and regulatory policy framework of the United States, and (c) 
the development of recommendations for establishing an accountability 
and audit system to determine the effectiveness of enforcement at local 
levels.
    (4) Training of Miners and Mine Operators--This task will focus on 
making improvements to the system in China for insuring safety in 
mines. The training will emphasize how managers/section leaders 
understand and implement management systems to ensure proper management 
of safety in mines. In addition, training will also focus on hazards 
that are the major causes of mine fatalities in China. The objectives 
for this task will be achieved through the following activities: (a) 
pre-training site assessment at Yangquan Mine Group to establish 
baseline data for safety conditions in a representative Yangquan mine, 
(b) development of training materials which will incorporate safety 
management systems training as well as training in specific mine 
hazards, (c) training of mine managers/section leaders and trainers, 
and training of miners at one or two Yangquan mines; and (d) 
interactive discussions in the United States.
    (5) Pilot Project--This task will focus on evaluating activities 
related to improving mine rescue, improving the capability of 
government inspectors, and training miners and mine operators. The 
objectives for this task will be achieved through the following 
activities: (a) organizing a site assessment group which will be the 
responsibility of the overall assessment of safety conditions in the 
pilot mine before and after training, and (b) performing safety 
assessments of trainees before and after training (this will involve 
mine rescue trainees, government inspector trainees, and mine operator/
section leader and miner trainees).

    That describes the project. We have received excellent cooperation 
from ILAB, MSHA, from the U.S. Embassy in Beijing, from our partners in 
China the NCIEC, from SAWS at the national and local level, from the 
Mine Rescue Command Center and from officials at the Yangquan Mine 
Group and the North China Institute of Science and Technology.

                                 <all>

</pre></body></html>
